("~.,~f-
    .4:..
  t>" Sf-RVIC,£S.&

                         DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                                       Region IX
                                                                                                       Office of Audit Services
                                                                                                       90 - yth Street, Suite 3-650
                      APR 302009                                                                       San Francisco, CA 94103




                     Report Number: A-09-08-00024

                     Mr. Jan Studa
                     Director
                     California Department of Child Support Services
                     P.O. Box 419064
                     Rancho Cordova, California 95741-9064

                     Dear Mr. Studa:

                     Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                     General (OIG), final report entitled "Review of Undistributable Child Support Collections in Los
                     Angeles County, California, From October 1,1998, Through March 31, 2006." We will forward
                     a copy of this report to the HHS action official noted on the following page for review and any
                     action deemed necessary.

                     The HHS action official will make final determination as to actions taken on all matters reported.
                     We request that you respond to this official within 30 days from the date of this letter. Your
                     response should present any comments or additional information that you believe may have a
                     bearing on the final determination.

                     Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                     available to the public to the extent that information in the report is not subject to exemptions in
                     the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                     If you have any questions or comments about this report, please do not hesitate to call me at
                     (415) 437-8360, or contact James Kenny, Audit Manager, at (415) 437-8370 or through e-mail at
                     James.Kenny@oig.hhs.gov. Please refer to report number A-09-08-00024 in all correspondence.

                                                                    Sincerely,

                                                                 ;\~Uf.~
                                                                   Lori A. Ahlstrand
                                                                   Regional Inspector General
                                                                    for Audit Services


                     Enclosure
Page 2 - Mr. Jan Sturla


Direct Reply to HHS Action Official:

Ms. Sharon M. Fujii
Regional Administrator
Administration for Children and Families, Region IX
U.S. Department of Health and Human Services
90 - i h Street, 9th Floor
San Francisco, California 94103
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





         REVIEW OF

   UNDISTRIBUTABLE CHILD

 SUPPORT COLLECTIONS IN Los

ANGELES COUNTY, CALIFORNIA,

    FROM OCTOBER 1,1998,

  THROUGH MARCH 31, 2006





                    Daniel R. Levinson

                     Inspector General


                       April 2009

                      A-09-08-00024

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY
BACKGROUND

The Child Support Enforcement program is a Federal, State, and local partnership, established in
1975 under Title IV-D of the Social Security Act, to collect child support payments from
noncustodial parents for distribution to custodial parents. Within the U.S. Department of Health
and Human Services, Administration for Children and Families, the Office of Child Support
Enforcement (OCSE) provides Federal oversight.

In California, the Department of Child Support Services (the State agency) supervises the child
support program, and individual counties administer the program. Beginning in 2000, the State
agency gradually transferred county administration from the county offices of the district
attorneys to newly created independent county departments of child support services (local child
support agencies). The transitions were completed by July 1,2002.

Undistributable collections result when a State receives a child support payment but cannot
identify or locate the custodial parent or return the funds to the noncustodial parent. OCSE
requires States to offset Child Support Enforcement program costs by recognizing and reporting
program income from undistributable child support collections and interest earned on child
support collections. OCSE defines undistributable collections as those that are considered
abandoned under State law. California law provides that amounts of $15 or greater that remain
unclaimed for 3 years become the property of the county after public notice. Individual amounts
that are less than $15, or any amount if the depositor's name is unknown, that remain unclaimed
for a period of 1 year may be transferred to the county's general fund without the necessity of
public notice.

States are required to report undistributable collections to OCSE on Federal Form OCSE-34A,
"Child Support Enforcement Program Quarterly Report of Collections," and program income on
Federal Form OCSE-396A, "Child Support Enforcement Program Financial Report, Quarterly
Report of Expenditures and Estimates."

This report focuses on Los Angeles County's local child support agency, the Child Support
Services Department (the county agency), which reported undistributable collections and
program income to the State agency.

OBJECTIVES

Our objectives were to determine whether the State agency appropriately recognized and reported
program income for the county agency's undistributable child support collections and interest
earned on child support collections.

SUMMARY OF FINDINGS

The State agency has appropriately recognized and reported program income for the county
agency's undistributable child support collections for the period October 1, 1998, through
March 31, 2006. Specifically, the county agency substantially resolved the $1,855,354
($1,224,533 Federal share) of unclaimed collections that it held as of March 31, 2006, and that
had met or exceeded the required time periods for holding unclaimed collections. The county
agency resolved the majority of these unclaimed collections before the start of our fieldwork in
December 2007, including reporting most unclaimed collections to the State agency as program
income and returning some unclaimed collections to custodial or noncustodial parents.

However, the State agency did not recognize or report program income totaling $878,373
($579,726 Federal share) for interest earned on child support collections. Because administration
of the Child Support Enforcement program moved July 1,2001, from the Los Angeles County
office of the district attorney to the county agency, the county agency was not aware that the
office of the district attorney had not reported some interest earned on collections as program
income.

RECOMMENDATION

We recommend that the State agency report program income totaling $878,373 ($579,726
Federal share) for interest earned on child support collections.

STATE AGENCY COMMENTS

In its comments on our draft report (included in their entirety as the Appendix), the State agency
concurred with the findings. Regarding our recommendation, the State agency commented that
the county agency will pay the full amount to the State agency to reimburse the umeported
interest earned on child support collections.




                                                 11
                              TABLE OF CONTENTS



INTRODUCTION                                                         1


  BACKGROUND                                                         1

    Child Support Enforcement Program                                1

    Requirements for Reporting Program Income                        1

    California's Child Support Enforcement Program                   1

    Review of Los Angeles County Child Support Services Department   2


  OBJECTIVES, SCOPE, AND METHODOLOGY.                                2

    Objectives                                                       2

    Scope                                                            2

    Methodology                                                      3


FINDINGS AND RECOMMENDATION                                          4


  FEDERAL AND STATE REQUIREMENTS                                     5


  INTEREST EARNED ON CHILD SUPPORT COLLECTIONS

    NOT REPORTED AS PROGRAM INCOME                                   5


  RECOMMENDATION                                                     5


  STATE AGENCY COMMENTS                                              5


OTHER MATTER: INTEREST EARNED ON PROGRAM

 ADMINISTRATIVE FUNDS                                                6


APPENDIX


  STATE AGENCY COMMENTS





                                         111
                                      INTRODUCTION


BACKGROUND

Child Support Enforcement Program

The Child Support Enforcement program is a Federal, State, and local partnership, established in
1975 under Title IV-D of the Social Security Act, to collect child support payments from
noncustodial parents for distribution to custodial parents. Within the U.S. Department of Health
and Human Services, Administration for Children and Families, the Office of Child Support
Enforcement (OCSE) provides Federal oversight by setting program standards and policy,
evaluating performance, and offering technical assistance.

In California, the Department of Child Support Services (the State agency) is responsible for
supervising the Child Support Enforcement program and generally receives Federal
reimbursement at a rate of 66 percent of program costs. The individual counties administer the
program.

Requirements for Reporting Program Income

Undistributable collections result when a State receives a child support payment but cannot
identify or locate the custodial parent or return the funds to the noncustodial parent. OCSE
Policy Interpretation Question (PIQ)-88-7 and OCSE-PIQ-90-02 require States to offset Child
Support Enforcement program costs by recognizing and reporting undistributable child support
collections as program income at the time the funds are considered abandoned under State law.
OCSE-PIQ-90-02 states: "Every State has statutes and regulations governing the handling of
unclaimed or abandoned property left in its care. OCSE-PIQ-88-7 ... recognizes this fact and
encourages each State to utilize these individual State procedures to report undistributable or
uncashed ... collections as title IV-D program income."

In addition, OCSE Action Transmittal (AT)-89-16 requires States to offset Child Support
Enforcement program costs by recognizing and reporting program income from interest earned
on child support collections.

States are required to report undistributable collections to OCSE on Federal Form OCSE-34A,
"Child Support Enforcement Program Quarterly Report of Collections," and program income on
Federal Form OCSE-396A, "Child Support Enforcement Program Financial Report, Quarterly
Report of Expenditures and Estimates."

California's Child Support Enforcement Program

Before January 1, 2000, the Child Support Enforcement program in California was supervised by
the Department of Social Services and administered at the county level by the offices of the
district attorneys. Effective January 1,2000, the State agency took over supervision ofthe
program and gradually transferred county administration of the program to newly created



                                                1

independent county departments of child support services (local child support agencies). All
transitions were completed by July 1, 2002.

From November 2005 through May 2006, the State agency transferred child support collection
and disbursement activities from the local child support agencies to the State Disbursement Unit
(SDU). During the transition, local child support agencies forwarded to SDU on a daily basis the
child support payments that they received. The local child support agencies retained all other
functions, such as locating custodial and noncustodial parents and enforcing collection actions.
Within 1 year after the transfer of collection and disbursement functions to SDU, all collections
remaining unclaimed in the child support trust accounts at the local child support agencies were
to be transferred to SDU.!

California law provides that amounts of $15 or more that remain unclaimed for 3 years become
the property of the county after public notice. Individual amounts that are less than $15, or any
amount if the depositor's name is unknown, that remain unclaimed for a period of 1 year may be
transferred to the county's general fund without the necessity of public notice. Upon satisfaction
of State requirements, such as trying to locate or identify the custodial or noncustodial parent and
publishing notice of the unclaimed collections in the local newspaper if required, the unclaimed
funds are considered abandoned and may be transferred to the county's general fund.

Review of Los Angeles County Child Support Services Department

Within California, we selected for review several local child support agencies that had large
amounts of unclaimed child support collections that were 3 years old or older and/or had reported
no undistributable collections. This report focuses on Los Angeles County's local child support
agency, the Child Support Services Department (the county agency), which reported
undistributable collections and program income to the State agency. We addressed the local
child support agencies in Orange County and Riverside County in separate reports
(A-09-06-00040 and A-09-07-00049, respectively).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency appropriately recognized and reported
program income for the county agency's undistributable child support collections and interest
earned on child support collections.

Scope

We reviewed the county agency's undistributable collections reported on Form OCSE-34A and
program income reported on Form OCSE-396A for the period October 1, 1998, through

lA child support trust account was an account established by a local child support agency for the receipt and
disbursement of child support collections.



                                                          2

March 31, 2006. Our review included child support collections that could not be identified with
or disbursed to the custodial parent or returned to the noncustodial parent and checks for child
support collections that were disbursed to the recipients but not cashed.

We limited our review of internal controls to understanding the State agency's and county
agency's policies and procedures for reporting undistributable collections and interest earned on
child support collections.

We performed fieldwork at the State agency in Rancho Cordova, California, in June and
July 2006 and at the county agency in Commerce, California, from December 2007 through
April 2008.

Methodology

To accomplish our objectives, we:

    •	   reviewed applicable Federal and State laws, regulations, and guidance, including OCSE
         program and policy announcements;

    •	   reviewed the State agency's policies and procedures for recognizing and reporting
         program income pertaining to undistributable collections and interest earned on child
         support collections;

    •	   reviewed the county agency's policies and procedures for identifying unclaimed property,
         reporting abandoned property, and identifying and reporting undistributable collections
         and program income to the State agency;

    •	   interviewed State agency and county agency officials to obtain an understanding of
         procedures for recognizing and reporting program income pertaining to undistributable
         collections and interest earned on child support collections;

    •	   compared total undistributable collections reported on Form OCSE-34A to program
         income reported on Form OCSE-396A for the period October 1, 1998, through
         March 31, 2006;

    •	   compared and reconciled undistributable collections from the State agency's supporting
         documentation to amounts reported on Form OCSE-34A for the period October 1, 1998,
         through March 31, 2006;

    •	   compared and reconciled program income from the State agency's supporting

         documentation to amounts reported on Form OCSE-396A for the period

         October 1, 1998, through March 31, 2006;


    •	 compared and reconciled undistributable collections from the county agency's
       accounting records to the undistributable collections reported to the State agency;


                                                 3

    •	 compared and reconciled interest earned on child support collections from the county
       agency's accounting records to the interest earned reported to the State agency;

    •	 compared data for interest earned that the State agency reported on Form OCSE-396A
       with interest earned that the county agency entered in its accounting records for the
       period October 1, 1998, through March 31, 2006;

    •	 reviewed 50 warrants selected from 8 monthly Los Angeles County auditor controller's
       reports of warrants issued but not cashed that covered the period April 2, 2001, through
       March 31, 2004, to determine whether the county agency appropriately reported the
       uncashed warrants as unclaimed collections;

    •	 reviewed pertinent documentation that the Los Angeles County office of the district
       attorney transferred to the county agency, such as monthly collection reports, quarterly
       expenditure reports, and unclaimed child support collections transferred to the Los
       Angeles County general fund;

    •	 reviewed the county agency's unclaimed collections data through March 31, 2006, to
       determine (1) whether the collections were aged appropriately and (2) actions that the
       county agency took on unclaimed collections that had met or exceeded the time periods
       for holding unclaimed collections required by California law; and

    •	 assessed the county agency's documentation for any unclaimed child support collections
       that the county agency transferred to SDU as of March 31, 2006, to determine whether
       those unclaimed collections qualified as abandoned property pursuant to State
       requirements.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

The State agency has appropriately recognized and reported program income for the county
agency's undistributable child support collections for the period October 1, 1998, through
March 31, 2006. Specifically, the county agency substantially resolved the $1,855,354
($1,224,533 Federal share) of unclaimed collections that it held as of March 31,2006, and that
had met or exceeded the required time periods for holding unclaimed collections. The county
agency resolved the majority of these unclaimed collections before the start of our fieldwork in
December 2007, including reporting most unclaimed collections to the State agency as program
income and returning some unclaimed collections to custodial or noncustodial parents.




                                                4

However, the State agency did not recognize or report program income totaling $878,373
($579,726 Federal share) for interest earned on child support collections. Because administration
of the Child Support Enforcement program moved July 1,2001, from the Los Angeles County
office of the district attorney to the county agency, the county agency was not aware that the
office of the district attorney had not reported some interest earned on collections as program
income.

FEDERAL AND STATE REQUIREMENTS

Federal regulations (45 CFR § 304.50) state that interest earned must be used to reduce Child
Support Enforcement program expenditures. In addition, OCSE AT-89-16 requires States to
offset program costs by recognizing and reporting program income from interest earned on child
support collections. Specifically, OCSE AT-89-16 states: "Although not required by either
statute or regulation, many States have chosen to invest or deposit these funds in
income-producing accounts. Any amount earned through these activities is considered program
income and must be used by States to offset program expenditures."

State agency policy, Local Child Support Agency letter 02-36, provides clarification on the
reporting of interest earned on child support collections: "All interest earned on Child Support
Enforcement program funds must be reported ... " and used to offset program expenditures.

INTEREST EARNED ON CHILD SUPPORT COLLECTIONS
NOT REPORTED AS PROGRAM INCOME

The State agency did not report program income totaling $878,373 ($579,726 Federal share) for
interest earned on child support collections held by the county agency. This unreported interest
was earned from May through August 2000. Because administration of the Child Support
Enforcement program moved July 1,2001, from the Los Angeles County office of the district
attorney to the county agency, the county agency was not aware that the office of the district
attorney had not reported some interest earned on collections as program income.

RECOMMENDATION

We recommend that the State agency report program income totaling $878,373 ($579,726
Federal share) for interest earned on child support collections.

STATE AGENCY COMMENTS

In its comments on our draft report (included in their entirety as the Appendix), the State agency
concurred with the findings. Regarding our recommendation, the State agency commented that
the county agency will pay the full amount to the State agency to reimburse the unreported
interest earned on child support collections.




                                                 5

                            OTHER MATTER:

           INTEREST EARNED ON PROGRAM ADMINISTRATIVE FUNDS


Pursuant to Federal regulations (45 CFR § 92.21(i)), interest earned on advances, except for
interest earned on advances of funds exempt under the Intergovernmental Cooperation Act, must
be remitted to the Federal Government at least quarterly. State agency policy, Local Child
Support Agency letter 02-36, states that county agencies must report quarterly the interest earned
on all funds received to administer the child support program.

The State agency advances Federal funds for administering the Child Support Enforcement
program to Los Angeles County. These funds are commingled with other county funds and
invested by the Los Angeles County treasurer. The Los Angeles Auditor-Controller's office
stated that the interest earned on these funds is used to help fund the county's annual budget.
The county agency did not know the amount of the interest earned on these advances. We plan to
review the interest earned on these funds in a future audit.




                                                 6

APPENDIX

                                                                                                APPENDIX




STATE OF CALIFORNIA - HEALTH AND HUMAN SERVICES AGENCY	                           ARNOLD SCHWARZENEGGER,   Governor
CALIFORNIA DEPARTMENT OF CHILD SUPPORT SERVICES
P.O. Box 419064, Rancho Cordova, CA 95741-9064




        April 3, 2009


        Ms. Lori A. Ahlstrand
        Regional Inspector General for Audit Services
        Department of Health & Human Services

        Office of Audit Services

        90 - i Street, Suite 3-650
               h

        San Francisco, California 94103

        SUBJECT: REPORT NUMBER A-09-08-00024

        Dear Ms. Ahlstrand:

        This is in response to your draft report of the Review of Undistributable Child Support
        Collections in Los Angeles County, California, from October 1, 1998 through March 31,
        2006. Thank you for your letter of January 28, 2009 and the opportunity to respond.

        We have reviewed your recommendations contained in the draft report and concur with
        the finding. Please find our response to your recommendation, as noted below.

        Interest Earned on Child Support Collections

        Recommendation:	 Report program income totaling $ 878,373 ($579,726 federal
                         share) for interest earned on child support collections.

        Response:	                We concur with the finding. This amount of interest earned on
                                  child support collections was not reported by the Office of the
                                  District Attorney during May through August 2000 and should have
                                  been reported as program income. The full amount will be paid to
                                  the State by the county to reimburse the amount of unreported
                                  interest.

        If you have any questions regarding this response, please contact Barbara Owens,
        Audit Manager, at (916) 464-5168.


        sn::x1LL
         AN STURLA

        Director



        cc:	       Steven J. Golightly, Director, Los Angeles County Child

                   Support Services Department



        DCSS-DR-2009-FED-0009/AI37936
